OIG Investigative Reports, November 21, 2011  Riverside, CA - Paso Robles Woman Sentenced to Six Years in Prison for Filing Application that Contained Forged Signatures for $35 Million in Federal Grants to Fund After-School Programs in Coachella Valley
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
NEWS
RELEASE
André Birotte Jr
United States Attorney
Central District of California
For Immediate Distribution
July 07, 2011
Thom Mrozek, Public Affairs Officer
(213) 894-6947
thom.mrozek@usdoj.gov
www.justice.gov/usao/cac
Los Angeles County Probation Officer Arrested for Wire Fraud for  Fraudulently Obtaining Sdudent Aid
RIVERSIDE, California – A Los Angeles County Probation officer was arrested
this morning on federal wire fraud charges that allege she bilked the federal financial
aid system by using two identities to fraudulently obtain financial assistance.
Angenette Thomas, 43, of Rialto, was arrested at her place of employment in
San Dimas by special agents with the U.S. Department of Education - Office of
Inspector General.
A criminal complaint filed June 29 in United States District Court alleges that
Thomas obtained federal student loans and grants to attend several local colleges,
including Platt College; University of La Verne; California State University, Fullerton;
California State University, San Bernardino; and National University in La Jolla. After
Thomas defaulted on many of these loans, she applied for more financial aid in March
2009 and falsely claimed she was not in default on a federal student loan. According to
the complaint, when Thomas was rejected for financial aid after it was discovered she
was in default on her student loans, she used a second name and social security
number to again apply for federal student aid. In this application, Thomas claimed she
had never attended college and earned no income in 2008. Based on these
representations, she received more federal student aid.
The complaint alleges that Thomas altogether received more than $135,000 in
federal student aid, of which at least $18,000 was by fraud. The complaint also alleges
that, when interviewed by federal agents in January 2011, Thomas lied about her
employment and education.
A criminal complaint contains allegations that a defendant has committed a
crime. Every defendant is presumed to be innocent until and unless proven guilty in
court.
Thomas is expected to make her initial court appearance this afternoon in
federal court in Riverside.
If convicted of wire fraud, Thomas would face a statutory maximum sentence of
20 years in federal prison.
The case against Thomas is the result of an investigation by the U.S.
Department of Education - Office of Inspector General.
CONTACT: Assistant United
States Attorney Jerry C. Yang
&nbsp               Riverside Branch Office
&nbsp
(951)  275-6221
Release No. 11-095 Top
Printable view
Last Modified: 02/23/2012
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov